PROOF OF SERVICE

Thereby certify:

On this 9 day of November, 2020, I, the undersigned person, served one
copy of the Petition in this cause by mailing the same to the following counsel
for Respondent:

Solicitor General of the U.S.
Room 5616

Department of Justice

950 Pennsylvania Ave NW
Washington, D. C. 20530-0001

in full compliance with the provisions of Rule 29.

  
    

a eer we Z Ss
WALLACE L. TAYLOR
ATTORNEY FOR PETITIONER

    

CERTIFICATE OF FILING
I, Wallace L. Taylor, attorney for Petitioner, hereby certify that I filed 11
copies of the Petition with the Clerk of the Supreme Court of the United States

by mailing same by regular mail to 1 First St. N.E., Washington, D.C. 20543,
on the 9 day of November, 2020.

ae a ‘
ae a oe C
WALLACE L. TAYLOR

ATTORNEY FOR PETITIONER

18
